WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1219
Burien Communities for Inclusion, et al.

Respect Washington
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
111 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Burien Communities for Inclusion

O I am a member of the Bar of the Supreme Court of the United States.
I I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
--e-eget-e---lt, •

Signature
Date.

April

2020

(Type or print) Name

Jennifer Robbins
O Mr.

Firm

❑ Miss

Barnard Iglitzin & Lavitt LLP

Address

18 W Mercer St, Suite 400 _

City & State
Phone

El Ms. O Mrs.

Seattle, WA

206-257-6008

Zip
Email

98119

robbins@workerlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUI
EC EN ED

CC: Richard Stephens, Hillary Graber, Michael Kenyon, Janine Joly

APR 3 0 2020
OFFICE OF IViE CLERK
SUPREME COURT U.S.

A

18 West Mercer Street, Suite 400
Seattle WA, 98119
TEL (800) 238.4231
FAX (206) 378.4132

BARNARD
IGLITZIN &
LAVITT LLP

JENNIFER WOODWARD
Senior Paralegal
DIR (206) 257.6016
woodward@workerlaw.com

Original via US First Class mail

April 23, 2020

Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:

Respect Washington v. Burien Communities for Inclusion, et al.
Case No. 19-1219
BIL File No. 6561-002

Dear Clerk:
Enclosed for filing in the above-referenced matter is Burien Communities for Inclusion's
Waiver form. Please let me know if you have any questions or concerns. I can be reached at
(206) 257-6016 or Woodward@workerlaw.com.
Thank you for your time and attention in this matter.
Sincerely,
IMA
P
ennifer Woo • ward
Paralegal

RECEIVED
APR 30 2020
OFFICE OF
SUPREME COURTLERK
U.S.
workerlaw.com

